3n The
bupreme Court of tije littiteb btate5

MAY 1. 1 2021

•

OFFICE OF THE CLERK

Supreme Court. U.S.
FIt.ED

In Re ABHIJIT PRASAD,
Petitioner,
v.

KOMAL RATTAN,

Respondent,
,

Petition For Rehearing
On Writ of Mandamus decision No. 20-7170
•

PETITION FOR A WRIT OF REHEARING
ABHIJIT PRASAD
2100 N Donovan Way
San Ramon
CA 94582
Telephone (209) 914-6022
abhijit.us@gmail.com (preferred)
Pro Se

RECEIVED
MAY 1 7 2021
OFFICE OF THE CLARK
SUPREME COURT, U.S.

REQUEST AND PURPOSE OF THIS PETITION
Abhijit Prasad ("Petitioner", "Husband") humbly
submits this petition for rehearing requesting review of U.S.
Supreme Court writ of mandamus decision No. 20-7170
asking California Supreme Court to review his appeal in
which a decision could be had.

Due to Pro Se nature of this filing, Husband respectfully
requests that this Honorable Court provide a less stringent
standard of review when examining Husband's attempts at
case citing, rules, procedures, and legal syntax. See Haines
v. Kerner, 404 U.S. 519, 520 (1972); Erickson v. Pardes,
551 U.S. 89, 94 (2007).
EXCEPTIONAL AND EXTRAORDINARY
CIRCUMSTANCES WARRANT THE EXERCISE
OF THIS COURT'S DISCRETIONARY
POWERS TO ALLOW HUSBAND HIS RIGHTS
TO ACCESS STATE'S HIGHEST COURT ON
APPEAL

In this case, Husband's multiple requests (see
APPENDIX D) to review California's First District Court
2

of Appeals decision with the California Supreme Court,
while he was in federal prison were repeatedly denied (see
APPENDICES A, B). Husband requested the California
Supreme Court to extend the "petition for review" filing
deadline by two months because he was serving a Federal
sentence at FCI Lompoc, CA and remained under strict
lockdown (followed by quarantine) since March 2020, due
to COVID-19, which prevented him from filing any
petitions (see APPENDIX D as in Writ of Mandamus
petition). FCI, Lompoc underwent a very strict lockdown
beginning March 25, 2020 due to COVID-19 pandemic,
around the time Husband was transferred there, and the
inmates were completely barred from accessing the law
library or seek an outside counsel. Husband was left with no
ability to counsel oneself or through an outside counsel. The
lockdown followed quarantine that was even stricter where
Winton, Coronavirus Outbreak at Lompoc Prison is
the Worst in the Nation: 69 Inmates, 25 Staff Infected, LOS
ANGELES TIMES (Apr. 16, 2020) available at
https://wwvv.latimes.com/california/story/2020-0416/coronavirusoutbreak-at-lompoc-federal-prison-is-worst-innation-with-69-inmates-25-staffinfected; see also Torres, et al.
v. Milusnic, CV 20-04450-CBM-PVC (Dkt #18)

1 Richard

3

Husband was locked up all day and was only allowed to
shower or phone for half an hour every alternate day.

Husband was in communication with the California
Supreme Court prior to expiry of their jurisdiction that gave
court power to protect and exercise its jurisdiction. He last
wrote to them on May 15, 2020 (see APPENDIX D), eight
weeks before July 8, 2020 when the court would statutorily
lose its jurisdiction. (see APPENDIX B). The California
Supreme Court responded by stating that "If you are able to
have both petitions for review with two separate
"Applications for Relief from Default" reach the court
before the loss of jurisdiction, court may permit it to be filed
late. Once this court loses jurisdiction, it no longer has any
authority to consider or grant any relief whatsoever in this
case; no matter what reason you may have for submitting a
late petition". (see Appendices A, B). Husband was only
released to home confinement on Aug 20, 2020,
necessitating this request and his earlier requests to the U.S.
Supreme Court.

4

iii.

ARGUMENT

Husband argues that he is entitled to the commencement
of a new limitations, because his placement in COVID-19
segregation and its attendant limitations on his access to his
legal file and the prison law library amounted to an unlawful
impediment to his "'constitutional right of access to the
courts.'" See Lewis v. Casey, 518 U.S. 343, 346, 116 S.Ct.
2174, 135 L.Ed.2d 606 (1996) (quoting Bounds v.
Smith, 430 U.S. 817, 828, 97 S.Ct. 1491, 52 L.Ed.2d 72
(1977)).

Considering the ongoing public health concerns relating
to COVID-19, several courts have flexed their Court's
Rules and practices, including U.S. Supreme Court (see
ORDER LIST: 589 U.S. filed 03/19/2020) extending
deadlines for filing certain petitions. Some states like
Hawaii had extended certain filing deadlines. The Supreme
Court of Kansas has issued several orders and temporary

5

rules in 2020 and 2021 to extend or suspend any deadlines
or time limitations established by statute following
extension of the State of Disaster Emergency related to
COVID-19. However, the California Supreme Court
refused Husband's reasonable request (Husband had
requested two months extension) to extend his petition for
review filing deadline beyond what is permitted by statute
by categorically stating that it could not let Husband file a
late petition "no matter what reason you may have for
submitting a late petition".

Husband has been contesting the underlying case in
Family Court that was filed in 2007 that ended abruptly in
2020, where a decision could be had, pouring cold water
over his 13 years of effort to get justice in a substantial rights
issue. Husband has exhausted all options and no relief can
be obtained in any other form or from any other court. Under
Supreme Court Rule 20, the U.S. Supreme Court is
authorized to issue an extraordinary writ pursuant to 28
U.S.C. § 1651(a), § 2241 or § 2254(a). To justify the

6

granting of any such writ, the petition must show that
exceptional circumstances warrant the exercise of the
Court's discretionary powers, and that adequate relief
cannot be obtained in any other form or from any other
court.

Husband requests the U.S. Supreme Court to consider
the combination of strict pandemic related lockdown and
quarantine when he was in prison that prevented him to file
any petition or hire counsel as extraordinary or exceptional
circumstance. Thelaw.com Law Dictionary and Black's
Law Dictionary 2nd Ed. defines "extraordinary and
exceptional circumstances" as "Unusual situation which is
not ordinary for a particular place or time". Husband's
situation was exactly the same, when he requested a
reasonable extension of filing deadline.

The Constitution guarantees citizens the ability to
vindicate their rights in court. A Supreme Court decision to
this effect is certain to affect a number of similarly situated

7

persons, particularly inmates, who were and are currently
stuck in strict lockdown and/or quarantine imposed by
prisons in wake of COVID-19 pandemic and whose requests
for continuance or extensions to file petitions or toll their
cases during those times were and are being disallowed by
courts, because of absence of a uniform national directive
from the highest government level. Though some states
have relaxed their rigid rules in some cases, others have not.
There is an overriding need for national uniformity in all 50
states in this matter so as not to deprive prisoners' access to
the justice system during lengthy lockdowns and
quarantines required to curb spread of COVID-19, where
they lose all abilities to file petitions or communicate with
the Court. A Supreme Court decision to this effect will also
make it easy for prison authorities to allow only those
prisoners access to law libraries who have a filing
requirement during COVID-19 lockdown/quarantines
without violating the precautionary COVID-19
frameworks. All of Attorney General's and prison
commanders' memos that have laid the guidelines for

8

COVID-19 related lockdowns and quarantines do not
provision any help to prisoner's situation that Husband has
complained. Prison and jail authorities who usually allow
prisoners access to law library and counsel, on showing of
good cause, during normal lockdowns (resulting due to
fights, etc.), do not allow such access during COVID-19
related lockdowns. A Supreme Court decision to this effect
if made retroactive until, say December 2020, when the first
COVID-19 patient in America was diagnosed will also help
inmates, like Husband who made good faith requests with
their respective Courts to extend their filing deadline during
COVID-19 lockouts/quarantines but were denied those
requests. A Supreme Court decision to this effect is
necessary since the pandemic in not yet over and there are
scientific predictions of newer waves with more deadly
variants that will increase pandemic related lockdowns and
quarantines in our prisons in near future. It is requested that
statutory filing deadlines be relaxed and extended
reasonably across 50 states, especially for persons who are
faced with such exceptional circumstance.

9

iv.

STANDARD OF REVIEW

The denial of Prasad's rights to access the highest state
is a violation of the equal protection guarantee of the Fifth
Amendment's Due Process Clause. In such cases the U.S.
Supreme Court can apply the "Rational basis" standard of
review, at the minimum. Rational basis review tests whether
the government's actions are "rationally related" to a
"legitimate" government interest. United States v. Carolene
Products Co., 304 U.S. 144 (1938). Under rational basis
scrutiny, the means need only be "rationally related" to a
conceivable and legitimate state end. Further, in rational
basis scrutiny, empirical support is not necessary to sustain
a state action.

v.

REQUEST AND PRAYER TO THIS COURT
For all the reasons stated herein, the requests made in

this petition of rehearing should be granted, together with
any relief as this Court deems just and proper.

10

Respectfully Submitted:
Date: May 11, 2021
Place: San Ramon, CA

ABHIJI PRASAD
2100 N Donovan Way
San Ramon
CA 94582
Telephone: (209) 914-6022
email: abhijit.us@gmail.com
(preferred)
Petitioner
Pro Se

GOOD FAITH CERTIFICATION
Petitioner Abhijit Prasad certifies that this petition is
presented in good faith and not for delay.

Date: May 11, 2021
Place: San Ramon, CA

ABHI IT PRASAD
Petitid er

CERTIFICATION STATING THE GROUNDS OF THIS
PETITION

Petitioner Abhijit Prasad certifies that this petition has
been filed on the grounds that Prasad's constitutional rights
to access the state's highest court was denied, causing
substantial prejudice, when the California Supreme Court
struck down his multiple requests to file a slightly late
petition, even after he informed the California Supreme
Court that he was stuck in an extraordinarily strict and the
worst COVID-19 segregation and quarantine in the entire
nation in FCI-Lompoc, California in 2020, that had
introduced emergency measures that disallowed him and
other prisoners to access the law library, legal file and
outside counsel. The controlling effect of the lockdown and
quarantine which was one of its kind, and Prasad's abrupt
end to 13 years of litigation that involved substantial rights
issue has been presented in this petition.

Date: May 25, 2021
Place: San Ramon, CA

ABHIJ T PRASAD
Petitioner

13

VIOET/CinIfTga')

rea
V1.0:1'7.7rt

mat

L.

n b')111 cr).9r.1',

Icnoilutiteno•)?'bfr.w.r."vg tacit 2brnioi
b

J-11,70-.)

p.'ainia

na-x..)n

lfirO1C11.12. Bill'1110 arlr 05fEW

tpfit o1 Ri2C.'u p r •31cilliurn ir1 owab )btri) . •
,ATV/1(1UP, flirarAild) Dili botrriei rit oil 14-..)iti;
.

ni

rit 1)1-4/: r)i-11.8

tit

WI/ W-1. 413:11

NIB noils,!,t,f.Yin.,?,

4 0:0S

(pro 1-I
:;) t)ar

1111.11 b!)WOilLeib
baG !JITI Icaol

IV(YJ JeloN

trtni orb

ot ;:-Lf.rtaai7q ”clio

floitno

5biat11?).

Iqtrtdc 1-.0fpinci brit ,bur )1 Eli 1:(

5:nitruricup

tcrit

e-111 '(i l of brio

.110i til5ci iri1 fli 1),111.5e!`fiCt ITY-K1

-

Jumiti51 act);:tf).61q

